                                                                                                   

                                               U.S. Department of Housing and Urban Development
                                               Office of Inspector General for Audit, Region I
                                               Thomas P. O’Neill, Jr. Federal Building
                                               10 Causeway Street, Room 370
                                               Boston, MA 02222-1092

                                               Phone (617) 994‐8380    Fax (617) 565‐6878 
                                               Internet http://www.hud.gov/offices/oig/
                   
 
 
                                                                                 MEMORANDUM NO:
                                                                                      2012-BO-1801

January 6, 2012

MEMORANDUM FOR:              Jennifer Gottlieb Elazhari, Program Center Coordinator, Hartford
                             Field Office, 1EPH
                             Craig Clemmensen, Director, Departmental Enforcement Center,
                             CACB


FROM:                        John A. Dvorak, Regional Inspector General for Audit, Boston
                             Region 1, 1AGA

SUBJECT:                     Corrective Action Verification
                             Housing Authority of the City of Danbury
                             Procurement Practices
                             Audit Report 2004-BO-1004


                                      INTRODUCTION

We performed a corrective action verification review of the audit recommendations made on the
procurement practices of the Housing Authority of the City of Danbury for finding 5 of Audit
Report Number 2004-BO-1004, issued December 5, 2003. This review was based on a
complaint. The purpose of the review was to determine whether the selected audit
recommendations were implemented and the deficiencies cited in the report were corrected.

For each recommendation without a management decision, please respond and provide status
reports in accordance with U.S. Department of Housing and Urban Development (HUD)
Handbook 2000.06, REV-3. Please furnish us copies of any correspondence or directives issued
because of the audit.

                              SCOPE AND METHODOLOGY

The corrective action verification review focused specifically on recommendations 5A and 5E
from the 2003 audit report. To accomplish our objective, we reviewed the 2003 audit report, as
well as, the HUD management decisions and supporting documentation used by HUD to close
the recommendations. We also reviewed applicable HUD regulations regarding the procurement
of goods and services and the Authority’s financial statements, organizational structure, board
minutes, contract logs, vendor payment history, and procurement policies. We interviewed staff
from the Authority as necessary. We also selected and reviewed a non representative sample of
14 contracts1 to evaluate whether the Authority implemented sufficient internal controls to
ensure that the executed contracts followed Federal procurement regulations. The review period
covered January 1, 2009, through December 31, 2010.


                                                               BACKGROUND

We reported five findings in our 2003 audit of the Authority’s Public Housing Capital Fund
program (Audit Report Number 2004-BO-1004). Finding 1 of the report noted that the
Authority was in default of the $11 million variable rate demand general obligation bonds under
the indenture of trust, which occurred because $2.3 million in improper bond-related transactions
was approved by the Authority’s executive director. Also the Authority’s board of
commissioners lacked adequate management controls and oversight of bond transactions.
Finding 2 of the report noted that the $11 million in general obligation bonds was not financially
viable. Had the Authority not defaulted on the $11 million in bonds (finding 1), it still risked
financial difficulty in repaying the bonds, which was caused by a serious cash flow problem
resulting from the executive director’s poor planning and operating elements related to the
Authority’s $11 million in bonds. Finding 3 noted inadequate management oversight of
Authority property and financial records, which occurred because the Authority was not
managed effectively and efficiently. In addition, the Authority lacked adequate policies,
procedures, and internal controls governing the use of vehicles, cellular phones, and credit cards.
Finding 4 noted that the Authority had incurred $92,816 in costs that were ineligible,
unsupported, and unreasonable because it did not establish adequate controls over the issuance of
checks and the use of its credit cards and cellular phones. Other factors contributing to this
noncompliance were the board of commissioners’ failure to exercise its leadership and
monitoring functions to adequately question the executive director’s actions and the finance
director’s failure to properly monitor credit card payments. Finding 5 noted that procurement
practices were ineffective and the Authority’s procurement practices did not comply with HUD’s
regulations and its own procurement policy. The deficiencies included

               Architect and construction contracts awarded without competition,
               Sole source contract awards not justified,
               Labor standards omitted,
               Services paid for without a contract,
               Change orders not appropriate and not approved by the board of commissioners, and
               Bid proposals and contract documents missing.



                                                            
1
 We reviewed a total of 14 contracts consisting of 5 Capital Fund Program contracts and 1 Section 8 contract during
audit survey and 7 operations contracts and 1 Section 8 contract during audit verification.

                                                                   2 
 
This condition occurred because the Authority’s management did not fulfill its responsibility to
establish and implement effective internal controls over the procurement process. The corrective
action verification focused on recommendations 5A and 5E from finding 5. We had
recommended that the Assistant Secretary for Public and Indian Housing instruct the Authority
to
    5A.        Adhere to HUD regulations and its own procurement policy in awarding
               competitive sole source contracts.
    5E.        Maintain documentation supporting the basis for contracts awarded, including
               history of procurement and appropriate analysis.

Finding 5 Management Decisions

In response to recommendation 5A, the Authority was required to request approval for all
Federal procurements over $8,000 until acceptable performance had been documented by HUD.
In accordance with this management decision, the Authority requested two such procurement
approvals. The approvals were both requested on January19, 2005, and both were granted on
February 17, 2005. The Authority was also required to provide documentation showing that
Authority staff responsible for procurement had received procurement training. A memorandum
from HUD’s Recovery and Prevention Corps (HUD)2 was provided, which stated that all staff
from the Authority responsible for procurement had received training. Effective March 1, 2005,
HUD concluded that the Authority had satisfied the requirements of recommendation 5A.

In response to recommendation 5E, the Authority was required to maintain contract files
containing documentation supporting the basis for contracts awarded, including the history of the
procurement and appropriate analysis of the award. Those files were to be made available to
HUD staff for review. The Authority also provided new language in its newly revised
procurement policy regarding record retention. The new policy requires the Authority to keep all
contracts and modifications in writing with clear specification. The Authority was also required
to maintain documentation regarding the history of the procurement, including the method of
procurement chosen, the selection of the contract type, the rationale for selecting rejected offers,
and the basis for the contract price. HUD had reviewed the contract files on site and determined
that the files fully complied with all requirements. The Authority was also required to provide
documentation showing that Authority staff responsible for procurement had received
procurement training. A memorandum from HUD was provided, which stated that all staff
members from the Authority who were responsible for procurement had received training.
Effective April 19, 2005, HUD concluded that the Authority had satisfied the requirements of
recommendation 5E.

                                                               RESULTS OF REVIEW

The corrective action verification found that the Authority did not effectively implement
recommendations 5A and 5E in the prior audit report. We determined that the Authority
                                                            
2
 HUD’s Recovery and Prevention Corps supports HUD’s Office of Public Housing field offices to prevent at-risk
public housing agencies from becoming troubled and facilitate the recovery of troubled agencies. The Corps
provides specific technical assistance, training, and consulting services to program centers and program areas within
HUD’s Office of Public and Indian Housing.

                                                                       3 
 
       Did not always follow HUD regulations in awarding competitive sole source contracts.
        Did not always maintain adequate documentation supporting the basis for contracts
        awarded.
       Failed to always maintain an adequate contract log detailing its past and present
        procurements, making it difficult to determine the number of contracts executed, their
        amount and type, and their current status.
        Had multiple versions of its procurement policy.
       May have violated ethical standards.

The Authority Did Not Always Follow Federal Procurement Regulations or Its Own
Procurement Policy

Procurement regulations are contained in the Code of Federal Regulations (24 CFR 85.36).
These regulations require the Authority to

       Conduct all procurement in a manner to provide full and open competition (24 CFR
        85.36(c)(1)).
       Maintain sufficient records to show the history of the procurement. The records should
        include the rationale and justification for the method of procurement, the type of
        contract, the selection of the contractor, and the basis for the contract price (24 CFR
        85.36(b)(9)).
The Authority’s procurement policy dictates that procurement by noncompetitive proposals (sole
source) may be used only when (1) the award of a contract is not feasible using small purchase
procedures, sealed bids, cooperative purchasing, or competitive proposals and (2) after
solicitation of a number of sources, competition is determined inadequate. Each procurement
based on noncompetitive proposals must be supported by a written justification for the selection
of this method. The justification must be approved in writing by the responsible contracting
officer, which is the executive director for this Authority. In addition, the reasonableness of the
price for all procurements based on noncompetitive proposals must be determined by performing
a cost analysis.

We reviewed 14 contracts, consisting of 5 Capital Fund program contracts, 2 Section 8
contracts, and 7 operations contracts executed by the Authority. Although the Authority
properly procured the five Capital Fund program contracts and two Section 8 contracts, we
identified deficiencies in six of the seven operations contracts reviewed. Specifically, the
Authority did not follow HUD regulations in awarding competitive and sole source contracts
and did not maintain adequate documentation supporting the basis for contracts awarded as
required.

Operations Contracts

We identified many deficiencies in six of the seven operations contracts reviewed, including
insufficient evidence that contracts were adequately competed, missing contract forms and
provisions, lack of justification supporting sole source contracts, and board of commissioners
approvals signed after contract execution or missing. Further, we discovered that forms were
                                                 4 
 
added to the contract files after our request to review them and in some cases, correction fluid
was used to conceal the printer header showing the date printed. The executive director
acknowledged that the contract files were removed from the Authority by the former purchasing
director and that, upon their retrieval, they were missing key documents that she then added or
reproduced for the file before giving us the files. The executive director explained that she was
trying to present the files as she believed them to have been before they were removed and there
was no intent to deceive. However, regardless of intent, the former Purchasing Director and
current executive director are responsible for source documents being altered and the executive
director performed a management override of the PHA system of internal controls over
procurement and may have violated its ethics standards . The following contracts were
reviewed.

       Automated Waste Disposal Inc.

       This 3-year contract, executed on August 28, 2008, for trash services totaling an
       estimated $286,560, followed Federal procurement regulations and the Authority’s
       procurement policy.

       KONE, Inc.

       This 5-year contract, executed on April 21, 2008, for elevator services totaling an
       estimated $56,000, did not follow Federal procurement regulations or the Authority’s
       procurement policy. Specifically, the contract may not have been advertised or competed
       adequately, a cost or price analysis may not have been completed, and many of the
       required contract forms and provisions were not included in the file. Additionally, the
       file did not include a board resolution approving the contract. The Authority’s
       procurement policy requires board approval for contracts ranging from $25,000 to
       $100,000. There was also no evidence in the file that the contractor maintained liability
       insurance to protect the Authority from claims. The original contract file was
       disorganized, and much of the required procurement documentation was missing. Some
       of the documents included in the file, such as the contracts, were not signed by the
       Authority.

       Amtech Pest and Wildlife Management Control, Inc.

       This 3-year contract, executed on November 6, 2008, for pest control services for
       approximately $13,360 per year, generally followed Federal procurement regulations and
       the Authority’s procurement policy. However, the file did not include an excluded
       parties list system form showing that the contractor had not been debarred. Also, the
       contract provisions did not permit access to contractor records or require record retention
       for 3 years.

       Casterline Associates, P.C.

       This single bid contract, executed on July 16, 2009, for financial and consulting services
       not to exceed $96,000, did not follow Federal procurement regulations or the Authority’s

                                                5 
 
    procurement policy. Specifically, it was not competed adequately as the Authority
    received only one bid, although the contract was advertised adequately. Also the
    Authority might be able to justify awarding the contract as a single bid contract, but the
    file did not include justification or a price analysis or other evaluation showing that the
    proposal was competitive and adequately competed. Regulations at 24 CFR 85.36(b)(9)
    provide that grantees will maintain records sufficient to detail the significant history of a
    procurement. These records will include but are not necessarily limited to the following:
    rationale for the method of procurement, selection of contract type, contractor selection
    or rejection, and the basis for the contract price. Documents in the file indicated that the
    Authority had a working relationship with Casterline before the award of the contract in
    2009. This working relationship could have been used by the Authority as part of its
    justification had it chosen to prepare one, but there were no such documents to support
    this single bid contract.

    Additional discrepancies noted during our review included that (1) the board resolution
    was dated August 20, 2009, nearly a month after the contract award, and was not signed;
    (2) the printout of the excluded parties list system legal notice was added to the file and
    correction fluid was used to hide the printer header identifying the date the notice was
    printed; and (3) all required forms listed in the request for proposals, such as HUD forms
    5369-C and 5369-B and insurance documents, were not signed or included as part of the
    contract agreement. The Authority’s procurement policy requires board approval for
    contracts ranging from $25,000 to $100,000. Further, we discovered that forms were
    added to the contract files after our request to review them and in some cases, correction
    fluid was used to conceal the printer header showing the date printed. The executive
    director acknowledged that the contract files were removed from the Authority by the
    former purchasing director and that, upon their retrieval, they were missing key
    documents that she added or reproduced for the file. The executive director explained
    that she was trying to present the files as she believed them to have been before they were
    removed and there was no intent to deceive.

    Norbert E. Mitchell Co., Inc.

    This sole source 1-year contract, executed on October 22, 2009, for fuel oil totaling
    $92,463, generally followed Federal procurement regulations and the Authority’s
    procurement policy. The lone exception was that the Authority’s board resolution (#832)
    was not signed until January 21, 2010, 3 months after the contract was executed. The
    Authority’s procurement policy requires board approval for contracts ranging from
    $25,000 to $100,000.

    Cramer and Anderson LLP

    This single bid contract, executed on May 24, 2010, for legal services totaling $100,000,
    did not follow Federal procurement regulations or the Authority’s procurement policy.
    Specifically, it was not competed adequately, although it was adequately advertised. The
    contract was procured as a noncompetitive proposal, although there were two responsive
    bidders. It appears that the Authority disregarded the second proposal, as there was no

                                              6 
 
              mention of the proposal in the contract file. This situation may have occurred because
              the Authority had an existing relationship with one of the legal representatives at Cramer
              and Anderson LLP for the previous 5 years.

              Additionally, the contract in the file was signed only by the contractor and, as in the case
              of the Casterline Associates, P.C., file, the printout of the excluded parties list system
              legal notice was added to the file, and correction fluid was used to hide the printer header
              identifying the date the notice was printed. Further, we discovered that forms were added
              to the contract files after our request to review them and in some cases, correction fluid
              was used to conceal the printer header showing the date printed. The executive director
              acknowledged that the contract files were removed from the Authority by the former
              purchasing director and that, upon their retrieval, they were missing key documents that
              she added or reproduced for the file. The executive director explained that she was trying
              to present the files as she believed them to have been before they were removed and there
              was no intent to deceive.

              Wayne Baker, Esq.

              This 2-year contract, executed on June 28, 2010, for a hearing officer totaling an
              estimated $21,000 to $31,500 per year, generally followed Federal procurement
              regulations and the Authority’s procurement policy. However, as in other files reviewed
              (Casterline Associates, P.C., and Cramer and Anderson LLP), the file contained updated
              information that was printed and added to the file to make it appear complete. Namely, it
              appeared the independent cost estimate, copy of the legal notice, and various resumes of
              the respondents were added to the file. In the case of the resumes, many showed updates
              in 2011, while the contract was awarded in June 2010. Once again, correction fluid was
              used to conceal the date on the printer header.

Capital Fund and Section 8 Contracts

We reviewed five Capital Fund3 contracts and determined that the Authority had implemented
sufficient internal controls to ensure that the contracts executed were made in accordance with
Federal procurement regulations. Specifically, the contracts were obligated in a timely manner,
the proper procurement method was used, there was adequate competition, a proper evaluation
and selection occurred, the cost was reasonable, contract provisions were included, and that the
contractor was properly insured and bonded. No exceptions were noted. Additionally, we
reviewed two Section 8 contracts. The first, a 2-year contract for inspection services totaling
$64,000 with Elite Inspections, LLC, followed Federal procurement regulations and the
Authority’s procurement policy. The second, a lease agreement with Lumar Lake Avenue
Realty, LLC, was not reviewed because the Authority funded the lease using earned Section 8
administration fees and was exempt from following Federal procurement regulations.

Contract Log and Procurement Policy Discrepancies

                                                            
3
 We reviewed the following five Capital Fund contracts: (1) Danbury Septic Contractors, (2) Empire Paving, (3)
Sisca Northeast, Inc., (4) Management Strategies, Inc., and (5) J.D. Amelia & Associates, LLC.

                                                               7 
 
The Authority failed to maintain an adequate, comprehensive contract log detailing its past and
present procurements, making it more difficult to manage its active contracts and review past
contracts and increasing the likelihood of errors. Upon our request, the Authority initially
provided three separate lists identifying its Capital Fund program contracts, Section 8 contracts,
and operational contracts. We asked the Authority to provide an updated, comprehensive single
file contract log and learned that the updated log was not consistent with the three previous lists
provided. Noticing discrepancies, we informed the Authority and requested a revised contract
log, which also contained discrepancies. Inconsistencies included contract dates, amounts,
durations, and other terms. When comparing the new listing to the old separate listings, we
discovered 8 contracts that were on the new listing but not the old and 16 contracts that were on
the old listings but not the new. The Authority’s executive director blamed the former
purchasing director, who she stated had stopped maintaining a contract log sometime in
November 2010 and whose employment with the Authority was terminated in February or
March 2011. The Authority needs to create a complete, comprehensive contract log to track its
contracts going forward.

Additionally, during the course of our review, the Authority provided three versions of its
procurement policy. After we questioned missing information in the first procurement policy
received, the Authority’s executive director provided a new procurement policy in May, 2011.
That document, labeled “Procurement Policy 2011,” indicated that it was last revised on May 21,
2009, but no board resolution number was cited for that revision. In August 2011, the Authority
provided yet another procurement policy, labeled “Statement of Procurement Policy,” which was
last revised on April 16, 2009, citing board resolution number 788. Although the last two polices
provided were comparable in content, the multiple versions could cause confusion among
Authority staff in determining what policy was in effect.

                                        CONCLUSION

The corrective action verification found that the Authority did not effectively implement
recommendations 5A and 5E in the prior audit report. It had not implemented adequate
procedures and controls to ensure that it followed HUD regulations and its own procurement
policy in awarding competitive or sole source contracts. Further, it had not maintained adequate
documentation supporting the basis for contracts awarded, including the history of the
procurement and appropriate analysis.


                                   RECOMMENDATIONS

We recommend that the Director of HUD’s Hartford Office of Public Housing

1A.    Reopen recommendations 5A and 5E in HUD’s Audit Resolution and Corrective Action
       Tracking System to ensure that the Authority follows Federal procurement regulations
       and its own procurement policies and maintains adequate supporting documentation.




                                                 8 
 
1B.    Require the Authority to create and maintain a complete, comprehensive contract log to
       track its past, current, and future contracts.

1C.    Consider documenting the concerns raised in this memorandum in any executed
       intervention strategy agreement between HUD and the Authority.

1D.    Conduct periodic inspections of the Authority’s procurement activities to ensure
       compliance with Federal procurement requirements.

We recommend that the Director of HUD’s Departmental Enforcement Center

1E.    Review the actions of the Authority’s executive director and take appropriate
       administrative actions if warranted.


                                  AUDITEE”S RESPONSE

We provided Authority officials a draft memorandum on December 15, 2011, and held an exit
conference on December 21, 2011. The Authority officials provided written comments on
January 4, 2012, in which they agreed with our results and recommendations and indicated that
they had begun to take corrective action to eliminate the conditions cited in this memorandum.
The complete narrative text of the Authority officials’ response may be found in Appendix A of
this memorandum.




                                               9 
 
Appendix A 
 

              AUDITEE COMMENTS
 
 

 




 

 

 

 

 

 

 

 

 




                     10 
 
    AUDITEE COMMENTS
 
 

 




 

 

 

 

 

 

 

 
 
 


                        




           11 
 
    AUDITEE COMMENTS
 
 

 




 

 

 

 

 

 

 


 




           12 
 
